Visa Business Credit Card Agreement
This Business Credit Card Agreement ("Agreement") includes this document, any letter,
card carrier, card insert, addendums, any other document accompanying this Agreement,
any application that you signed or submitted to the credit union, and any notification of
changes to this Agreement. The words "you" and "your" mean each person, each business
or organization ("organization"), and each officer or owner of the organization who agrees
to be bound by this Agreement as set forth below. The words we, our, us and "credit union"
means the credit union whose name appears on this Agreement or anyone to whom the
credit union transfers this Agreement. The word "card" means the Visa or MasterCard
business credit card you receive from the credit union and any duplicates, renewals, or
substitutions the credit union issues to you. The word "account" means the credit card line
of credit account the credit union approves for you that is subject to this Agreement.
1. PERSONS BOUND. By signing (in ink, electronically or digitally) any business loan
application stating your agreement to be bound by this Agreement or by using the card or
account we issue to you, or by authorizing an employee to use the card or account we issue
to you, you agree to be bound by the terms of this Agreement. If you are an officer or
owner obtaining an account for your organization, you agree to the terms of this Agreement
in your personal capacity as well as your capacity as an officer or owner authorized to bind
the organization to this Agreement.
2. USING YOUR ACCOUNT. If you are approved for an account, the credit union will
establish a line of credit for you. The amount of your credit limit is set forth on the
Addendum accompanying this Agreement. You agree that your credit limit is the maximum
amount (purchases, cash advances, finance charges, plus "other charges") that you will
have outstanding on your account at any time. If you exceed your credit limit, you must pay
the amount you are over your limit plus any fees and unpaid finance charges before
payments will begin to restore your credit limit. In addition, a fee may be imposed for
exceeding your credit limit. You may request an increase in your credit limit only by a
method acceptable to the credit union. The credit union may increase or decrease your
credit limit, refuse to make an advance and/or terminate your account at any time for any
reason not prohibited by law. If you are permitted to obtain cash advances on your account,
we may from time to time issue convenience checks to you that may be drawn on your
account. Convenience checks may not be used to make a payment on your account balance.
If you use a convenience check it will be posted to your account as a cash advance. We
reserve the right to refuse to pay a convenience check drawn on your account for any
reason and such refusal shall not constitute wrongful dishonor.
You may request that we stop the payment of a convenience check drawn on your account.
You agree to pay any fee imposed to stop a payment on a convenience check issued on
your account. You may make a stop payment request orally, if permitted, or in writing. Your
request must be made with sufficient time in advance of the presentment of the check for
payment to give us a reasonable opportunity to act on your request. In addition, your
request must accurately describe the check including the exact account number, the payee,

any check number that may be applicable, and the exact amount of the check. You may
make a stop payment request orally but such a request will expire after fourteen (14) days
unless you confirm your request in writing within that time. Written stop payment orders
are effective only for six (6) months and may be renewed for additional six month periods
by requesting in writing that the stop payment order be renewed. We are not required to
notify you when a stop payment order expires. If we re-credit your account after paying a
check or draft over a valid and timely stop payment order, you agree to sign a statement
describing the dispute with the payee, to assign to us all of your rights against the payee or
other holders of the check or draft and to assist us in any legal action. You agree to
indemnify and hold us harmless from all costs and expenses, including attorney's fees,
damages, or claims, related to our honoring your stop payment request or in failing to stop
payment of an item as a result of incorrect information provided to us or the giving of
inadequate time to act upon a stop payment request.
3. STATEMENT OF BUSINESS PURPOSE. You agree that you have represented to us that you
are obtaining your account for business purposes, that all purchases, cash advances,
balance transfers, use of any convenience checks issued on your account and any other use
of your account will only be for a business purpose. You agree that you will never use your
account for any personal, household or family purposes.
4. USING YOUR CARD. You may use your card to make purchases from merchants and
others who accept your card. The credit union is not responsible for the refusal of any
merchant or financial institution to honor your card. If you wish to pay for goods or services
over the Internet, you may be required to provide card number security information before
you will be permitted to complete the transaction. In addition, the credit union may permit
you to obtain cash advances from the credit union, from other financial institutions that
accept your card, and from some automated teller machines (ATMs). (Not all ATMs may
accept your card.) If the credit union authorizes ATM transactions with your card, it will
issue you a personal identification number (PIN). To obtain cash advances from an ATM,
you must use the PIN that is issued to you for use with your card. You agree that you will
not use your card for any transaction that is illegal under applicable federal, state or local
law. Even if you use your card for an illegal transaction, you will be responsible for all
amounts and charges incurred in connection with the transaction. If you are permitted to
obtain cash advances on your account, you may also use your card to purchase instruments
and engage in transactions that we consider the equivalent of cash. Such transactions will
be posted to your account as a cash advance and include, but are not limited to, wire
transfers, money orders, bets, lottery tickets, and casino gaming chips. This paragraph shall
not be interpreted as permitting or authorizing any transaction that is illegal.
5. RESPONSIBILITY. You agree to pay all charges (purchases and cash advances, balance
transfers, use of convenience checks and any other charge) to your account that are made
by you or anyone whom you authorize to use your account. You also agree to pay all
finance charges and other charges added to your account under the terms of this
Agreement or another agreement you made with the credit union. If there is more than one
person bound to this Agreement, each will be individually and jointly responsible for paying
all amounts owed under this Agreement. If you are an organization, the officer or owner
that obtained the account for the organization is also personally obligated for all charges
made under the account. This means that the credit union can require any one of you to
individually repay the entire amount owed under this Agreement. In addition each person
bound under this Agreement, as well as any authorized user, may make purchases
individually and, if cash advances are permitted for your account, may obtain cash advances
individually.

6. INTEREST RATE. The Interest Rates applicable to purchases, cash advances, and balance
transfers are disclosed on the Addendum that accompanies this Agreement. Any penalty
rate that may be imposed for failing to make a payment by the Payment Due Date is also
disclosed on the Addendum. These rates may be either fixed or variable as disclosed in the
Addendum accompanying this Agreement. If the rate for your account is fixed, the rate
charged on purchases, cash advances, balance transfers, and any penalty rate will be fixed
and will not vary from month to month unless we notify you in advance that the rate will
change. If the rate for your account is variable, as indicated on the accompanying
Addendum, the rate charged on purchases, cash advances, balance transfers and any
penalty rate will vary periodically as disclosed in the Addendum accompanying this
Agreement. The initial rate on your account for certain types of transactions may be an
introductory discounted rate (Introductory Rate) that is lower than the rate that would
ordinarily apply for that type of transaction. If an Introductory Rate applies to your account,
the rates and the period of time it will be effective is shown on the Addendum
accompanying this Agreement. After the Introductory Rate period expires, the Interest Rate
will automatically increase to the rates that would ordinarily apply for that type of
transaction based on the terms of this Agreement.
7. FINANCE CHARGE CALCULATION METHOD FOR PURCHASES. New purchases posted to
your Account during a billing cycle will not incur a finance charge for that billing cycle if you
had a zero or credit balance at the beginning of that billing cycle or you paid the entire New
Balance on the previous cycle's billing statement by the Payment Due Date of that
statement; otherwise a finance charge will accrue from the date a purchase is posted to
your Account. To avoid an additional finance charge on the balance of purchases, you must
pay the entire New Balance on the billing statement by the Payment Due Date of that
statement. The finance charge is calculated separately for purchases and cash advances.
For purchases, the finance charge is computed by applying the periodic rate to the average
daily balance of purchases. To get the average daily balance of purchases, we take the
beginning outstanding balance of purchases each day, add any new purchases, and subtract
any payments and/or credits. This gives us the daily balance of purchases. Then, we add all
the daily balances of purchases for the billing cycle together and divide the total by the
number of days in the billing cycle. This gives us the average daily balance of purchases.
8. FINANCE CHARGE CALCULATION METHOD FOR CASH ADVANCES. A finance charge
begins to accrue on cash advances from the date you get the cash advance or from the first
day of the billing cycle in which the cash advance is posted to your account, whichever is
later. For cash advances, the finance charge is computed by applying the periodic rate to
the average daily balance of cash advances. To get the average daily balance of cash
advances, we take the beginning outstanding balance of cash advances each day, add in
any new cash advances, and subtract any payments and/or credits that we apply to the
cash advance balance. This gives us the daily balance of cash advances. Then, we add all
the daily balances of cash advances for the billing cycle together and divide the total by the
number of days in the billing cycle. This gives us the average daily balance of cash
advances.
9. OTHER CHARGES. In addition to the Interest Rate, additional fees may be imposed on
your account. The amount and description of these fees are disclosed on the Addendum
accompanying this Agreement.
10. PAYMENTS. Each month you must pay at least the minimum payment shown on your
statement by the date specified on the statement or no later than twenty-five (25) days
from the statement closing date, whichever is later. If your statement says the payment is

"Now Due," your payment is due no later than twenty-five (25) days from the statement
closing date. All payments must be made in U.S. dollars and if made by a negotiable
instrument such as a check or money order, must be in a form acceptable to us and drawn
on a U.S. financial institution. You may pay more frequently, pay more than the minimum
payment or pay the Total New Balance in full. If you make extra or larger payments, you
are still required to make at least the minimum payment each month your account has a
balance (other than a credit balance). The minimum payment for your account is shown on
the Addendum accompanying this Agreement. In addition to the minimum payment, you
must also pay, by the date specified above, the amount of any prior minimum payment(s)
that you have not made, all outstanding unpaid fees and charges, and any amount you are
over your credit limit. The credit union also has the right to demand immediate payment of
any amount by which you are over your credit limit. Subject to applicable law, your
payments may be applied to what you owe to the credit union in any manner the credit
union chooses. We may accept checks marked "payment in full" or with words of similar
effect without losing any of our rights to collect the full balance of your account with us.
11. FOREIGN TRANSACTIONS. If you make a purchase or obtain a cash advance in a foreign
currency, the transaction will be debited from your account in U.S. dollars. Either Visa or
MasterCard will convert the transaction into U.S. dollars depending on whether you
complete the transaction with a Visa card or MasterCard or if the transaction is processed by
a network operated or affiliated with Visa or MasterCard. For transactions process through
Visa, the exchange rate used to convert foreign currency transactions is a rate selected by
Visa from a range of rates available in wholesale currency markets for the applicable central
processing date, which rate may vary from the rate Visa itself receives or the governmentmandated rate in effect for the applicable central processing date. For transactions
processed through MasterCard, the exchange rate used to convert foreign currency
transactions to U.S. dollars is either a government-mandated exchange rate or a wholesale
exchange rate that is selected by MasterCard. The rate MasterCard uses for a particular
transaction is the rate MasterCard selects for the applicable currency on the day the
transaction is processed. The exchange rate used to convert the transaction may differ from
the rate MasterCard or Visa receives and may differ from the rate applicable on the date the
transaction occurred or was posted to your account.
12. COLLECTION COSTS. You agree to pay all costs of collecting the amount you owe under
this Agreement, including court costs and reasonable attorney's fee, as permitted by
applicable state law.
13. SECURITY INTEREST. If you give the credit union a specific pledge of shares by signing
a separate pledge of shares, your pledged shares will secure your account. You may not
withdraw amounts that have been specifically pledged to secure your account until the
credit union agrees to release all or part of the pledged amount. In addition, your account is
secured by all other shares you have in any individual or joint account with the credit union,
except for shares in an Individual Retirement account or in any other account that would
lose special tax treatment under state or federal law if given as security. These other shares
may be withdrawn unless you are in default under this Agreement. You authorize the credit
union to apply the balance in your individual or joint share accounts to pay any amounts
due on your account if you should default. Collateral securing other loans you have with the
credit union may also secure this loan, except that a dwelling will never be considered as
security for this account, notwithstanding anything to the contrary in any other agreement.
14. DEFAULT. You will be in default if you fail to make any minimum payment or other
required payment by the date that it is due. You will be in default if you; a) break any

promise you make under this Agreement; b) exceed your credit limit; c) are a natural
person, if you die; d) are an organization, you cease to exist; e) are an organization, you
change your legal structure so that the person obligating the organization to this Agreement
is no longer authorized to bind it to legal agreements; f) file for bankruptcy or become
insolvent; g) make any false or misleading statements in any credit application or credit
update; or h) if something happens that the credit union believes may substantially reduce
your ability to repay what you owe. When you are in default, the credit union has the right
to demand immediate payment of your full account balance without giving you notice. If
immediate payment is demanded, you agree to continue paying finance charges, at the
Interest Rate charged before default, until what you owe has been paid, and any shares that
were given as security for your account may be applied towards what you owe.
15. CHANGING OR TERMINATING YOUR ACCOUNT. The credit union may change the terms
of this Agreement and any attached Addendum from time to time. Notice of any change will
be given in accordance with applicable law. If permitted by law, the change will apply to
your existing account balance as well as to future transactions. Either you or the credit
union may terminate this Agreement at any time, but termination by you or the credit union
will not affect your obligation to pay the account balance plus any finance and other charges
you owe under this Agreement. You are also responsible for all transactions made to your
account after termination, unless the transactions were unauthorized. The card or cards you
receive remain the property of the credit union and you must recover and surrender to the
credit union all cards upon request or upon termination of this Agreement whether by you
or the credit union. The credit union has the right to require you to pay your full account
balance at any time after your account is terminated, whether it is terminated by you or the
credit union.
16. CHANGING OR TERMINATING AUTHORIZED USERS. Upon your request, we may issue
additional cards for authorized users that you designate. You must notify us in writing of
any termination of an authorized user's right to access your account. Your letter must
include the name of the authorized user and your account number and/or any subaccount
number issued to the authorized user along with the authorized user's card and any
convenience or other access checks issued to the authorized user. If you cannot return the
authorized user's card or access checks and if you request your account to be closed, we
will close your account and you may apply for a new account.
17. LIABILITY FOR UNAUTHORIZED USE-LOST/STOLEN CARD NOTIFICATION. You may be
liable for the unauthorized use of your card or account. Notify us immediately, in writing or
by telephone at the address or phone number on the Addendum included with this
Agreement, if your card is lost, stolen or you suspect there has been unauthorized use of
your card or account. After we receive your notification, you will not be liable for any further
unauthorized use of your card or account.
If you are an organization with 10 or more employees and we have issued 10 or more cards
on your account for use by your employees, you will be liable for all unauthorized use of
your cards or account before notification to us. Otherwise, you will be liable for up to $50
for the unauthorized use of your card or account before notification to us. Unauthorized use
does not include use of a card by an authorized user in an unauthorized manner.
18. CREDIT REVIEW AND RELEASE OF INFORMATION. You authorize the credit union to
investigate your credit standing when opening or reviewing your account. You authorize the
credit union to disclose information regarding your account to credit bureaus and creditors
who inquire about your credit standing. If your account is eligible for emergency cash

and/or emergency card replacement services, and you request such services, you agree
that we may provide personal information about you and your account that is necessary to
provide you with the requested service(s).
19. RETURNS AND ADJUSTMENTS. Merchants and others who honor your card may give
credit for returns or adjustments, and they will do so by sending the credit union a credit
which will be posted to your account. If your credits and payments exceed what you owe
the credit union, the amount will be applied against future purchases and cash advances. If
the credit balance amount is $1 or more, it will be refunded upon your written request or
automatically after six (6) months.
20. ADDITIONAL BENEFITS/CARD ENHANCEMENTS. The credit union may from time to time
offer additional services to your account, such as travel accident insurance or a liability
waver program, at no additional cost to you. You understand that the credit union is not
obligated to offer such services and may withdraw or change them at any time.
21. EFFECT OF AGREEMENT. This Agreement is the contract which applies to all transactions
on your account even though the sales, cash advances, credit or other slips you sign or
receive may contain different terms.
22. NO WAIVER. The credit union can delay enforcing any of its rights any number of times
without losing them.
23. STATEMENTS AND NOTICES. Unless separate subaccounts have been set up under your
account for authorized users, statements and notices will be mailed to you at the most
recent address you have given the credit union. You agree to notify us at least 10 days in
advance of any change in address. Notice sent to any one person bound under this
Agreement will be considered notice to all. If we have agreed to send statements for
subaccounts under your account that have been issued to authorized users, we will send
statements to the most recent address you have provided for that authorized user. You
agree to notify us at least 10 days in advance of any change in address for an authorized
user. You are responsible for payment of all amounts shown on a statement delivered to an
authorized user.
24. NOTIFICATION OF CHANGE IN LEGAL STRUCTURE, OFFICERS OR OWNERS. If you are
an organization, you agree to notify us within 10 days of any change in your legal structure
or any change in your officers or owners.
25. SEVERABILITY AND FINAL EXPRESSION. This Agreement is the final expression of the
terms and conditions of your account. This written Agreement may not be contradicted by
evidence of any alleged oral agreement. Should any part of this Agreement be found to be
invalid or unenforceable, all other parts of this Agreement shall remain in effect and fully
enforceable to the fullest extent possible under this Agreement.
26. GAMBLING TRANSACTIONS PROHIBITED. You may not use your card to initiate any
type of gambling transaction.
27. GOVERNING LAW. This Agreement is governed by the laws of the state of Florida.
28. Visa Account Updater (VAU) – VAU is an account updating service in which your card
is automatically enrolled. When your card(s) expire, are lost or stolen and new cards are

issued, the service may update relevant card data (card numbers and expiration dates) to
appropriate merchants who participate in an effort to facilitate uninterrupted processing of
your recurring charges. This service provides updates to a Visa database only. The database
is accessed by those qualified merchants seeking your account information after you have
requested they process a recurring payment or payments. This service is provided as a free
benefit to you. If at any time you wish to opt-out of the VAU service or if you have any
questions, please call (850) 434-2211 to do so.
28. NOTIFICATION INFORMATION FOR REPORTING LOST, STOLEN AND UNAUTHORIZED
USE OF CARD. Notify us at once if your card has been lost or stolen or if you suspect that
your card is being used without your permission at the following: (800) 299-9842 24 Hours
a day Seven (7) Days a Week or Write to: Customer Service, Box 30498 Tampa, FL 33630

